                              U.S. DEPARTMENT OF ENERGY
                             OFFICE OF INSPECTOR GENERAL




           AUDIT OF THE DEPARTMENT OF ENERGY'S MANAGEMENT OF
         FIELD CONTRACTOR EMPLOYEES ASSIGNED TO HEADQUARTERS
                       AND OTHER FEDERAL AGENCIES




 The Office of Inspector General wants to make the distribution of its reports as customer friendly
  and cost effective as possible. Therefore, this report will be available electronically through the
                            Internet at the following alternative address:


        Department of Energy Human Resources and Administration Home Page
                              http://www.hr.doe.gov/ig


   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.


                                This report can be obtained from the
                                    U.S. Department of Energy
                           Office of Scientific and Technical Information
                                            P.O. Box 62
                                   Oak Ridge, Tennessee 37831




Report Number: DOE/IG-0414                                   Capital Regional Audit Office
Date of Issue: December 5, 1997                              Germantown, Maryland 20874
          AUDIT OF THE DEPARTMENT OF ENERGY'S MANAGEMENT OF
        FIELD CONTRACTOR EMPLOYEES ASSIGNED TO HEADQUARTERS
                      AND OTHER FEDERAL AGENCIES




                                        TABLE OF CONTENTS

                                                                                                           Page

             SUMMARY ..............................................................................         1

PART I -     APPROACH AND OVERVIEW ..............................................                           2

             Introduction ..............................................................................    2

             Scope and Methodology ...........................................................              2

             Background ..............................................................................      3

PART II -    FINDING AND RECOMMENDATIONS ..............................                                     4

             Management of the Use of Field Contractor Employees
                in Headquarters and Other Federal Agencies.......................                           4

PART III -   MANAGEMENT AND AUDITOR COMMENTS ...................                                            15

PART IV -    APPENDIX .............................................................................        19

             Related Reports Issued by the Office of Inspector General .......                             19
                                 U.S. DEPARTMENT OF ENERGY
                                OFFICE OF INSPECTOR GENERAL
                                  OFFICE OF AUDIT SERVICES

              AUDIT OF THE DEPARTMENT OF ENERGY'S MANAGEMENT OF
            FIELD CONTRACTOR EMPLOYEES ASSIGNED TO HEADQUARTERS
                          AND OTHER FEDERAL AGENCIES


Audit Report Number: DOE/IG-0414

                                              SUMMARY

       The Department of Energy (Department) has spent at least $76 million annually for field
contractor employee support in Headquarters and other Federal agencies. The employees were to
provide technical expertise and experience critical to Department operations and programs. Overall,
the audit was performed to determine if the Department was managing the use of field contractor
employees assigned to Headquarters and other Federal agencies. Specifically, it was to determine
whether the Department reviews and evaluates the costs for the use of contractor employees, is
reimbursed for contractors working at other Federal agencies, and had implemented corrective actions
proposed as the result of a prior audit report on this subject.

        The Department did not effectively manage the use of field contractor employees assigned to
Headquarters and other Federal agencies. Specifically, the Department was unable to identify all
contractor employees assigned to the Washington, DC area or determine the total cost of maintaining
them; some employees were providing routine support and administrative services rather than unique
program expertise; and several of the Department's contractors had assigned their employees to work
in other agencies without receiving full reimbursement for their services. In addition, the Department
did not fully implement the corrective actions it agreed to in the prior audit report.

        We recommended that the Deputy Secretary require the program offices to develop and
maintain a complete inventory of field contractor employees assigned to the Washington, DC area
(including other Federal agencies); coordinate with the Office of Procurement and Assistance
Management to continuously update and maintain the database of contractor employees; establish a
baseline of critical skills needed from the field; discontinue use of contractor employees that do not
provide these critical skills; establish policy and procedures that require the Department to evaluate the
cost of and the need for field contractor employees before they are assigned to the Washington, DC
area; and implement existing policies and procedures requiring approval of contractor employees prior
to assignment.



                                                         ___________/s/____________
                                                           Office of Inspector General
                                               PART I

                                   APPROACH AND OVERVIEW


INTRODUCTION

       The Department has spent at least $76 million annually for field contractor employee support
in Headquarters and other Federal agencies. The employees were to provide technical expertise and
experience critical to Department operations and programs. Overall, the audit was performed to
determine if the Department was managing the use of field contractor employees assigned to
Headquarters and other Federal agencies. Specifically, it was to determine whether the Department
reviews and evaluates the costs for the use of contractor employees, is reimbursed for contractors
working at other Federal agencies, and implemented corrective actions proposed as the result of a
prior Office of Inspector General (OIG) audit report.

SCOPE AND METHODOLOGY

        The audit was performed from January through July 1997 at the Department's Headquarters
and its program offices. The OIG requested and obtained information from the Department's National
Laboratories and its field sites to identify contractor employees provided to Headquarters and other
Federal agencies. This information included the employee name, supporting program or agency,
contractor name, estimated cost, dates assigned, and job performed as of March 31, 1997. The term
"field contractor employee" is used in this report to mean any employee of a contractor that is
responsible for the management of a Department-owned facility, such as a laboratory. This is defined
to include a management and operating contract, an integrating contract, or a subcontract. Additional
information was obtained through the Office of Human Resources and Administration’s Office of
Procurement and Assistance Management (Procurement); each of the Department's program offices;
and previous audit work done by the OIG.

        Although Procurement had attempted to gather information on contractor employees, similar
to the information collected by the OIG, its information was not complete or accurate. Therefore, we
did not rely extensively on this data to accomplish our audit objective, although we did attempt to
reconcile the differences between Procurement's data and the OIG data (see page 12). This report
includes a recommendation for actions to remedy the problems disclosed regarding the monitoring
systems. In addition, the number of contractor employees assigned to the Washington, DC area
(including other Federal agencies), and their estimated cost to the Department, may be understated
because the Department was unable to provide assurance that all pertinent contractor employees were
identified during our review.

        The audit was performed in accordance with generally accepted Government auditing
standards for performance audits. It included tests of internal controls and compliance with laws and
regulations necessary to satisfy the audit objective. We assessed the significant internal controls to
determine whether the Department's Headquarters had exercised adequate management control over
the cost of field contractor employees in the Washington, DC area. The findings in Part II
demonstrate the internal control problems found within the Department. Because our review was

                                                   2
limited, it would not necessarily have disclosed all internal control deficiencies that may have existed.
We did not rely on computer-generated data.

         We reviewed applicable laws and Departmental orders, related OIG and General Accounting
Office reports, implementing procedures and practices, and field contractor employee records for
employees in Headquarters as of March 31, 1997, from both the field installations and the
Headquarters program offices. Several audit reports related to this topic were issued by the OIG. A
listing of these related audit reports can be found in the Appendix.

        Throughout the audit the OIG met with Procurement to share preliminary observations and
audit data. The exit conference was held on November 12, 1997, for all Department program offices.

BACKGROUND

        In early 1995, the Secretary of Energy introduced the Department's Strategic Alignment
Implementation Plan. This plan committed the Department to reducing its reliance on support service
contracts by about $90 million annually. In September 1995, the Secretary issued a memorandum
reemphasizing the Department's commitment to the reduction and stated that the Department's
management and operating contractors "should not be assigned at the Department's request to provide
services that are tangential to their expertise and their missions in order to compensate for the
reductions in support service contracting."

       In July 1996, the OIG issued a report, Audit of the Department of Energy Program Offices'
Use of Management and Operating Contractor Employees. This report identified weaknesses in the
Department's monitoring of employees in Headquarters related to their budgetary impact on the
Department and the duties that they performed. Specifically, it identified 378 contractor employees
assigned to Headquarters from several of the Department's laboratories, 220 of whom were providing
administrative and technical support services directly to the program offices. This report
recommended that the Department define activities that may be performed by laboratory employees;
develop a system to monitor placement of laboratory employees within Department program offices;
and evaluate the budgetary impacts of continuing support by laboratory employees.

         In response to the OIG report, the Deputy Secretary issued a memorandum in August 1996
reiterating the Secretary's concerns and requesting a thorough review of the contractor employees at
Headquarters to ensure that they were not being used inappropriately. Procurement has attempted to
respond to these concerns. After the issuance of the July 1996 OIG audit report, Procurement agreed
to create a database of field contractor employees to monitor their use. In January 1997, it had
preliminarily identified over 200 contractor employees working for Headquarters program offices. By
May 1997, Procurement had gathered a list of approximately 400 employees, with information for the
database being supplied by the program offices. In March 1997, DOE Notice 350.3 was issued that
prohibited the use of management and operating contractors for support service and administrative
functions. While Procurement has made significant progress in carrying out recommendations of the
OIG's prior report, more remains to be done.




                                                    3
                                                PART II

                              FINDING AND RECOMMENDATIONS

               Management of the Use of Field Contractor Employees in Headquarters
                                  and Other Federal Agencies


FINDING

        The Department established controls to manage the number, cost, and use of field contractor
employees assigned to Headquarters and other Federal agencies. However, the Department was
unable to identify all contractor employees assigned to the Washington, DC area or determine the total
cost of maintaining them. In addition, the Department did not fully implement the corrective actions
proposed as a result of the prior audit report. This occurred because the Department had not
established a baseline of critical skills needed from the contractors, and procedures were not in place
or were not followed for the review and approval of the assignment of each contractor employee to
Washington. Furthermore, contractors could assign their own employees to the Washington, DC area
without the knowledge of the funding program. Also, program offices were augmenting their
decreasing Federal and support service staff with field contractor employees. As a result, the
Department spent over $76 million a year to maintain a Washington, DC-based contractor workforce
without adequate assurance that: (1) only essential program expertise was provided to Headquarters;
and (2) Departmental funds were used efficiently and effectively.

RECOMMENDATIONS

       We recommend that the Deputy Secretary direct each program office to:

       1. a. Develop an inventory that lists all field contractor and subcontractor employees
             assigned to the Washington, DC area, including those assigned to other Federal
             agencies; and
          b. Submit the completed inventory, along with changes as they occur, to the Office of
             Procurement and Assistance Management to maintain the Department's database;

       2. Establish a baseline of critical skills needed from the field contractors;

       3. Discontinue the use of all inventoried Washington, DC-based field contractor and
          subcontractor employees that have not demonstrated a skill critical to Department
          operations or programs;

       4. Establish policy and procedures that require a cost analysis prior to the assignment
          detailing the total cost to the Department to maintain the employee in the Washington, DC
          area for the full extent of the assignment, or a reimbursement schedule showing the total
          cost that will be reimbursed to the Department for services provided to another agency;




                                                    4
       5. Implement and enforce current policies and procedures that require employees with skills
          critical to the Department to obtain approval of the Assistant Secretary for Human
          Resources and Administration prior to their assignment; and

       6. Review and evaluate, semiannually, with the assistance of the Department's Procurement
          Executive, whether assignments of field contractor employees at Headquarters or other
          Federal agencies are being appropriately utilized in accordance with Departmental
          requirements.


MANAGEMENT REACTION

        Management agreed with the findings and generally concurred with the recommendations,
stating that the Department has been working for some time to improve management controls in this
area and intends to strengthen this initiative further. Detailed management and auditor comments can
be found in Part III.




                                                  5
                                       DETAILS OF FINDING


CONTROLS OVER THE USE OF FIELD CONTRACTOR EMPLOYEES

        Since 1995, the Office of the Secretary has been concerned about the Department's reliance on
its support service and management and operating contractors. In September 1995, the Secretary
issued a memorandum directing that the Department's management and operating contractors not be
assigned to provide services that are tangential to their expertise or missions in order to compensate
for the reductions in support service contracting. The Secretary also stated that the contractors should
not provide administrative or management support services that should be performed either by Federal
employees or by a contractor engaged for the specific purpose of providing such services. In August
1996 and March 1997, the Deputy Secretary reiterated the Secretary's concerns and directed that all
Heads of Departmental Elements conduct a thorough review of the contractor employees at
Headquarters to ensure that they were not being used inappropriately.

        The Department's Acquisition Guide, issued to assist the program offices and the field in
implementing Departmental procurement principles, and a March 1997 formal policy notice,
emphasized that contractor personnel should not perform personal services or support functions
outside their primary mission. In addition, both documents stated that assignments should only be for
the purpose of providing technical expertise and not to compensate for reductions in support service
contracting or to provide administrative or management support services. The notice also required
each Departmental program office to maintain a current inventory that lists each of these employees
and provides the contractor employee's name, the gaining and contributing organizations, and the
assigned task description.

        Departmental policy on field contractor personnel performing work in the Washington, DC
area sets forth requirements for the assignment of employees to other Federal agencies. This policy
requires the appropriate Headquarters element be involved in the review process and maintain a
project summary listing that includes the total estimated costs of the project. The policy also
encourages that core competencies at Departmental facilities be maintained and that proposed work be
consistent with or complementary to Departmental missions and not adversely impact execution of
Departmental programs.

CONTRACTOR EMPLOYEES ASSIGNED TO THE WASHINGTON, DC AREA

        Despite these requirements, the Department was unable to identify all contractor employees
assigned to the Washington, DC area or determine the total cost of maintaining them. Some
employees were providing routine support and administrative services rather than unique program
expertise, and several of the Department's contractors have assigned their employees to work in other
agencies without receiving full reimbursement for their services. In addition, the Department did not
fully implement the corrective actions proposed as a result of the prior audit report.




                                                   6
Identifying Contractor Employees

        The Department was unable to identify the number of contractor employees assigned to the
Washington, DC area. At the direction of the Secretary, Procurement began collecting information in
October 1995 from each program office that used field contractor employees in the Washington, DC
area. However, most program offices were unable to provide complete information. This was
evidenced by differences in the number of employees we were able to identify and the number
provided to Procurement. We identified over 800 field contractor employees working in the
Washington, DC area as of March 31, 1997, while Procurement's database had slightly more than 400
field contractor employees listed. The table below compares the number of contractor employees
submitted by each program office to Procurement as of May 1997, to the number of employees
tabulated by the OIG during the course of the audit.

                     COMPARISON OF DATA COLLECTION RESULTS

                                       Provided to           Identified by
        Program Office (1)             Procurement         Inspector General       Difference

   Environmental Management                 54                     216                 162
   Defense Programs                         58                     123                  65
   Energy Efficiency                        75                     116                  41
   Nonproliferation and                     57                     94                   37
      National Security
   Nuclear Energy                           19                     46                   27
   Policy and International                  8                     24                   16
      Affairs
   Environment, Safety,                     28                     43                   15
      and Health
   Energy Research                          38                     45                   7
   Fossil Energy                            16                     17                   1
   Human Resources and                      11                     11                   0
      Administration
   Fissile Materials Disposition             6                      6                   0

   Adjustment (2)                           34                     66                   32

   TOTAL                                   404                     807                 403


       (1) Not all program offices have been included.
       (2) The adjustment was made because smaller program offices and other agencies are not
           shown and some contractor employees work for more than one program.

        Most program offices reported a lower number of contractor employees to Procurement than
identified during our review. For example, Environmental Management (EM) reported only 54
contractor employees to Procurement, while we identified 216. EM did a more comprehensive

                                                 7
compilation at our request and provided a listing of approximately 180 employees working for its
program. On the other hand, some of the smaller offices, specifically Human Resources and
Administration and Fissile Materials Disposition, were able to track all of the employees in the area
supporting their program. We also selected a sample of 76 contractor employees from various
program offices to get more in-depth information concerning the specific uses of the contractor
employees. Based on discussions with program officials, 13 were unknown to the program or were
not attached to a particular task in Headquarters.

Cost of Maintaining a Washington, DC-Based Contractor Workforce

        The program offices could not evaluate the costs associated with maintaining a Washington,
DC-based contractor workforce because the contractor employees were not funded through
Headquarters accounts. The Department had no way of knowing the true total cost since the majority
of the funding associated with keeping contractor employees in Washington was from individual
contractor funding sources even though these costs were reimbursed by the Department. Based on
information obtained from the field sites, we estimated that maintaining a workforce of over 800
employees in Washington costs at least $76 million annually. This estimate was calculated using cost
information submitted on each individual contractor employee by the Department's field sites. The
actual cost could be significantly higher because many of the employees' costs could not be identified.

        Many of the contractor employees received relocation reimbursements, cost-of-living
adjustments, housing allowances and/or per diem in addition to their regular salaries and benefits. For
example, 45 of the 55 contractor employees from one laboratory received temporary housing
allowances in addition to a reimbursement for relocating to the Washington, DC area; 31 of these
allowances were for $50,000 or more (one was $100,000). Employees from several other laboratories
also received housing allowances or per diem for an extended period in addition to reimbursement for
relocating to Washington, DC.

        Headquarters program offices have, since the inception of the Department, relied on
contractors for specific expertise when necessary. This reliance has become so pervasive over the
years that, in most cases, the procedure of evaluating the benefit of the expertise against the cost has
been eliminated. Furthermore, costs charged to the Department for bringing a contractor employee to
Headquarters are determined by the contractor. Based on interviews with program managers, we
concluded that if a perceived need exists, most program offices will bring the employee to
Headquarters regardless of cost to the Department. We did, however, find some instances of
proactive cost management. For example, the Technical Director of the Office of Fissile Materials
Disposition (MD) has informed one laboratory that MD will no longer approve the funding for the per
diem cost of contractor employees in Headquarters.

        We concluded that the length of stay for contractor employees in the Washington, DC area
was an indicator of the reasonableness of cost and the validity of the program offices' purpose for
maintaining the contractor workforces. Our analysis showed that most of the employees had been in
Washington for more than a year and over 100 had been in the area for more than 5 years. The
following table shows the number of contractor employees working in Headquarters and the number
of years each has remained in this role as of July 1997.


                                                   8
                                  DURATION OF ASSIGNMENT

                             Years in the
                          Washington, DC Area          Number of Employees

                          Less than 1                          129
                          1-3 years                            277
                          3-5 years                            120
                          5-7 years                             51
                          7-10 years                            38
                          10-15 years                           20
                          15+ years                              8
                          Unknown                              164

                          TOTAL                                 807

While it is recognized that some projects can last for an extended period, the continued presence of the
contractor employees conveys the appearance, if not the reality, that program offices were augmenting
Federal staff rather than filling short-term needs for unique expertise.

Field Contractor Employees Performing Support Service and Administrative Functions

        Although Departmental policy prohibits the use of field contractor employees as support
service and administrative support, many employees were providing support and administrative
services rather than unique program expertise. The review identified at least 130 employees
performing either administrative or support service-type functions. During the review, the field
employee universe was divided into 10 "job classifications" derived from job descriptions provided by
the program and field offices. Sixty-five contractor employees were classified as administrative, with
duties ranging from secretarial and clerical support to meeting planning and logistical support.
Seventy-one others were designated as "support" personnel. These classifications and employees
within the classifications are shown below.

                     NUMBER OF EMPLOYEES BY JOB CLASSIFICATION

         Administrative                 65    Development                          16

         Support                         71   Researcher                           15

         Technical                      308   Liaison                              14

         Manager                         22   Other                                57

         Analyst                         39   Undetermined                        200




                                                   9
        Over 130 contractor employees were identified as being responsible for administrative or
support functions. However, it appeared that other job categories contained employees performing
similar duties. For instance, although 308 of the employees were classified as "Technical," indicating a
certain level of specialized expertise, the audit disclosed that this was not an appropriate designation in
some cases. For example, two employees providing "technical support" were doing work related to
budgeting. This work did not require special expertise and could have been done by Federal
employees or by a support service contractor. Within the "Other" classification there were several
employees that appeared to be performing support service-type functions. One such employee's
primary duties were to create matrices for presentations and install off-the-shelf computer programs.
Another employee's primary task was to make foreign travel arrangements for fellow laboratory
employees. In addition, the category classification entitled "Liaison" contained employees that
maintain the relationship between the Department and the laboratory or field facility. This activity did
not appear to require special or unique expertise, but rather experience in performing this service.

        We were unable to determine the job classifications of 200 contractor employees (categorized
as "Undetermined"), or about 25 percent of the total. Information that would have allowed such a
determination was not provided by the cognizant field site or the program office. This was indicative
of the overall difficulty we faced in obtaining information in regard to these employees. Although we
could not verify the actual tasks of all 807 employees, there was sufficient evidence to indicate that
many of the remaining field employees were not performing functions that require specialized
expertise.

Field Contractor Employees Working in Other Agencies

        The Department's contractors had assigned at least 143 of their employees to work in other
agencies. These employees were working for a variety of agencies, such as the Nuclear Regulatory
Commission and the Environmental Protection Agency. They were providing services in areas such as
technical support, advice, and analysis. The Department paid between 10 and 100 percent for services
provided by 40 of these employees. We were unable to assess the qualitative benefit to the Department
for the work done at the other agencies.

Implementation of Corrective Actions from Prior Report

        Although the Office of Procurement and Assistance Management has made some progress in
responding to the recommendations made in the OIG's report, Audit of the Department of Energy
Program Offices' Use of Management and Operating Contractor Employees, necessary actions were
not complete. The prior report identified weaknesses in the Department's monitoring of employees in
Headquarters related to their budgetary impact on the Department and the duties that they performed.
It concluded that many of the laboratory employees assigned to the Washington, DC area were
providing administrative and technical support services directly for program offices. In addition, the
employees worked on projects which had the potential to impact their laboratory employers. We
recommended that the Department define activities that may be performed by laboratory employees;
develop a system to monitor placement of laboratory employees within Department program offices;
and evaluate the budgetary impacts of continuing support by laboratory employees. However, the
database appeared to be substantially incomplete, DOE Notices and Guidance were not being

                                                    10
complied with, and management had not adequately addressed the budgetary impacts of continuing
support by laboratory employees.

REASONS FOR CURRENT LEVELS OF CONTRACTOR EMPLOYEES

        The Department was not effectively managing its use of field contractor employees because it
had not established a baseline of critical skills needed from the contractors. Further, procedures were
not in place or were not followed for the review and approval of the assignment of contractor
employees to Washington. We also found that contractors could assign their own employees to the
Washington, DC area without the knowledge of the funding program, and program offices were
augmenting their decreasing Federal and support service staff with field contractor employees.

Establishing a Baseline of Critical Skills Needed

        To carry out their missions, the Department's program offices have enlisted the services of
individual contract employees located in or detailed to the Washington, DC area. However, the
Department had not developed a baseline of critical skills needed in the Washington, DC area from the
contractors. Although the program offices had relied on the services of the contractor employees for
many years for various tasks, they had not established what specific expertise they needed from the
contractors. In addition, the program offices had not taken the initiative to evaluate each request for
"expertise" against the cost of having such an individual in the Washington, DC area. Establishing a
baseline would provide a standard by which the need for costly contractor employees could be
measured prior to their assignment.

        Management informed us that it requested information on the number and usage of
management and operating (M&O) contractor employees at Departmental Headquarters to establish a
"baseline of usage." It stated that fluctuations in usage against the baseline would be used as an
indication of potential misuse of such assignments, e.g., using the employees to offset support service
contract reductions. However, establishing a baseline of usage is useful only if the baseline contains
exclusively those individuals that are critical to the Department's mission. A baseline cannot be
created solely based on the number of people in Headquarters at a given time and evaluated based on
the "fluctuations". If the number of employees in Headquarters at the time of the initial identification
was not appropriate, then the evaluations of the fluctuations would not necessarily help the
Department to identify problems.

Review and Approval of Employee Assignment

        In March 1997 the Deputy Secretary directed that all assignments to Headquarters offices
require the written approval of the Assistant Secretary for Human Resources (HR). In May 1997, HR
developed a procedure that formalized this direction and required that an application be submitted to
HR for approval of field contractor employees prior to their assignment to the Washington, DC area
or for all assignment renewals. However, many program offices had not implemented the procedure at
the time of our review. Prior to May 1997 there were few, if any, formal procedures for requesting a
field contractor employee to work in Headquarters. Some program offices, such as Defense
Programs, had developed their own standard operating procedures for such an acquisition, but these
were not always followed by managers in the program.

                                                    11
       We interviewed program officials from every major program office in Headquarters to discuss
the implementation of the revised procedures issued by HR. Several of these officials had not even
heard of the new procedures issued by HR, some believed these should not apply to them, and others
chose not to use them. For example, within the Office of Nuclear Energy a few program managers did
not know about the new requirement and, therefore, did not obtain approval from HR for the contract
employees supporting their program. In the Office of Nonproliferation and National Security, several
program managers did not believe that the new procedures should apply to their contract employees
and one was trying to be exempted from the process. In Defense Programs (DP), one program
manager determined that the requirements did not have to be followed and brought three new field
employees into Headquarters, circumventing both HR and DP direction.

         On July 23, 1997, the Deputy Secretary requested that the OIG aid HR in developing a
corporate method and format for identifying and reporting M&O contract employees who work in
Headquarters positions or at M&O Washington, DC area offices. During a subsequent meeting, the
OIG offered copies of the list of contractor employees generated during the audit and expressed
concern that soliciting another round of "updates" from the program offices, this being at least the
third attempt by HR, would not necessarily answer the Deputy Secretary's request. An accurate
system for collecting and maintaining an information database is needed.

        On August 28, 1997, two days following the issuance of our initial draft report, HR again
issued a request to Headquarters program offices and field managers to update the "matrix of M&O
contractor employees" using a specific format including annotations to note any differences between
the data collected by the OIG and that collected by HR. Management stated that this initiative will
provide the Department with a comprehensive listing in a common format to facilitate identifying and
assessing contractor assignments by Headquarters and field officials. On October 30, 1997, HR
provided the OIG with a copy of the "comprehensive listing" received in response to the August 28
memorandum. This listing identified 690 field contractor employees in the Washington, DC area. A
reconciliation of HR's list with the OIG's list of 807 employees resulted in the identification of
employees not previously reported to the OIG (additions) and employees that had arrived after or left
before the March 31, 1997, cutoff (subtractions). At the conclusion of the reconciliation, a total of
864 field contractor employees were identified as performing work in the Washington, DC area on
March 31, 1997. This was 57 more than contained in the original OIG list.

Self-Assignment by Contractors

         Many of the Department's contractors, especially the laboratories, assigned their employees to
the Washington, DC area without the prior knowledge of the program offices. Most of these
contractors maintained leased facilities in the Washington, DC area and had both permanent and
temporary employees staffing these facilities. The arrival of a contractor employee may or may not be
previously acknowledged by a Headquarters program office despite the fact that the cost of that
employee was paid for out of program funds. For instance, both Argonne National Laboratory and
Pacific Northwest National Laboratory have leased facilities totaling over 20,000 and 45,000 square
feet, respectively, to provide for approximately 240 employees. Most of these employees were funded
either directly by the laboratories' program funds or indirectly through their overhead accounts. A few
were funded by the contractors' corporate headquarters and were not usually reimbursed by the

                                                  12
Department under contractual agreements. Since the Headquarters program offices were, in many
cases, unaware of the presence of these employees, there was no record or way of determining if the
tasks performed justify the cost of maintaining them in the Washington, DC area.

Augmenting Federal Staff

        The combination of strategic realignment and downsizing, along with funding restraints and
procurement requirements, has put significant pressure on program offices that have not, in their view,
had a decrease in responsibility. This situation caused the program offices to take action for
expediency purposes. For example, a Departmental official stated that one of the Department's prime
contractors had awarded subcontracts to former support service contractor employees as "a courtesy"
to the program offices. These subcontractor employees performed many of the same duties as they
did earlier as support service contractors. However, they were paid through the prime contractor with
"Program" funds rather than "Program Direction" funds. The use of subcontractors as replacement for
support service contractors circumvents the Department's initiative to reduce the reliance on support
service contracts and adds an additional layer of overhead to the Department's cost structure.

       The source and amount of funding for contractor employees and support contract services has
been of continuing concern to the Congress. The House Appropriations Committee Report on the FY
1998 Energy and Water Development Appropriations Bill emphasized that despite continuing
congressional interest in reducing the funds spent on augmenting Federal staff at the Department of
Energy, funding for such contracts appears to remain excessive or even has increased in certain
program areas. An additional concern relates to individual or support service employees in the
Washington, DC area. These individuals, hired by the Department's management and operating
contractors and field offices to provide direct administrative and technical support for Headquarters
program organizations, were not showing up as support service contractors in the budget request
because they were not funded through Headquarters accounts.

         Officials from Nonproliferation and National Security; Environment, Safety and Health; and
Environmental Management advised us that many of the duties performed by field contractor
employees could be done by Federal staff or support service contractors. Some of these officials
indicated that subcontractor employees, for the most part, are more expensive than an equivalent
support service contractor, but the two types of employees could be paid from different funding
accounts. Support service contracts were paid from a fund designated "Program Direction," while
subcontracts were paid through the prime contractor with "Program" funds. With the recent
congressionally directed decrease in appropriations for "Program Direction", program offices have
used more readily available "Program" money to obtain the services of contractor employees through
the field. We were also advised that the use of program funds expedited the procurement process,
since support service contracts must be awarded through the Department's procurement office. The
time it takes to obtain the services of an individual through a support service contract is much longer
than the time it takes to get an individual through the existing field contract.

IMPACT OF CURRENT ASSIGNMENT POLICIES

       The Department has spent over $76 million annually to maintain a Washington, DC-based
contractor workforce without adequate assurance that it provided only essential program expertise to

                                                   13
Headquarters, enhanced the Department's ability to accomplish its missions, and was an efficient and
effective use of Departmental funds. In addition, this level of support raised serious doubts about the
Department's commitment to its own Strategic Alignment Implementation Plan and congressional
attempts to reduce contractor and support service expenditures.

       While the total cost of the contractor employees performing administrative and support service
functions could not be determined with specificity, almost $9.8 million was spent annually for
employees categorized as strictly administrative or support. The use of field contractor employees for
such functions is expressly prohibited. We identified 11 administrative employees and 30 support
employees that each cost the Department over $100,000 per year. For example, one of these
administrative employees received over $73,800 a year in salary and benefits, $34,000 in temporary
housing allowances, and $38,000 for a relocation reimbursement. Another administrative employee
received $126,350 a year in salary and benefits and $50,000 for a housing allowance. An individual
providing support in computer networking received over $95,000 a year in salary and benefits and
over $71,000 in per diem and other allowances.

        The Department also funds all or part of the cost of 40 employees working in other agencies in
the Washington, DC area at a cost of about $4.6 million. This included 5 working for the Office of
Science and Technology Policy in the White House and 3 employees on detail to the Congress, one of
whom cost the Department over $300,000 per year. While we could not evaluate whether the
Department benefited from such arrangements on an individual basis, these employees, and an
additional 103 employees funded directly by other agencies, were spending their time providing their
services to agencies other than the Department of Energy.




                                                   14
                                                 PART III

                           MANAGEMENT AND AUDITOR COMMENTS

        By letter dated October 16, 1997, the Deputy Secretary agreed with the findings and
concurred with the recommendations. The Deputy Secretary stated that she places a high priority on
addressing the issues cited in the report and had directed the Assistant Secretary for Human Resources
and Administration to coordinate a comprehensive review of contractor employees. The Deputy
Secretary also stated that she intends to strengthen this initiative by reviewing its results and taking the
steps necessary to ensure that contractor employees working at Headquarters have critical skills and
that their assignments are cost-effective.

       Subsequently, on November 12, 1997, the OIG met with Procurement and representatives
from several Department program offices to discuss the specific report recommendations and
proposed actions. The Department’s proposed actions and our responses are discussed below.

RECOMMENDATIONS

       We recommend that the Deputy Secretary direct each program office to:

       1.      a. Develop an inventory that lists all field contractor and
                  subcontractor employees assigned to the Washington, DC area,
                  including those assigned to other Federal agencies;

        Management Comments. Management concurred in part with this recommendation, and stated
that the Assistant Secretary for Human Resources and Administration requested that the Secretarial
Officers and Field Managers provide updated inventories of all Washington, DC-located employees of
M&O, laboratory, management and integration, and environmental restoration management contracts,
as well as employees of any tier subcontractor, for whom the Department is paying as an element of
reimbursable contract cost. The inventories have been received and are being compiled into a single,
final product. Consistent with the Department's original and current interest in this matter, the names
of the contractor employees assigned to other Federal agencies are being collected only if their cost
represents an element of DOE reimbursable contract cost.

        Auditor Comments. The Department's proposed actions are responsive to the
recommendation. However, it should be recognized that "a single, final product" should be a starting
point to track the use of contractor employees in a dynamic database as envisioned in
Recommendation 1b.

       1.      b. Submit the completed inventory, along with changes as they occur,
                  to the Office of Procurement and Assistance Management to
                  maintain the Department's database;

       Management Comments. Management concurred and stated that the inventories that are
submitted by the various Departmental elements will be compiled by the Office of Procurement and

                                                     15
Assistance Management into a master inventory database. The database will be updated by the Office
of Human Resources and Administration as changes occur.

        Auditor Comments. The Department’s proposed actions are responsive to the
recommendation. It should be noted that the use of contractor employees with special expertise
represents a dynamic situation. Therefore, the inventory must be updated accordingly. Furthermore,
it should be emphasized that submitting the information to update the system is the responsibility of
the program offices and, therefore, part of the process.

       2.      Establish a baseline of critical skills needed from the field contractors;

         Management Comments. Management concurred, in part, with this recommendation and
stated that the Office of Human Resources and Administration and the Office of the Chief Financial
Officer will work together to develop a process which addresses the intent of this recommendation.
Management added, however, that it is not practical for the Department to develop a listing of all the
critical skills that may be required in the future by every program office or to anticipate new problems
that will require critical skills.

         Auditor Comments. Creating a baseline of critical skills needed is vitally important to any
efforts to effectively manage field contractor employee assignments. The OIG anticipates, as does
management, that the list of critical skills needed will change frequently. We do not expect the
Department to identify all future needs or problems. Rather, program offices should be required to
individually develop lists of critical skills needed currently. As future needs are identified, they can be
incorporated into revised lists. Over time, the needs of the programs will change, but with a baseline
in place the Department can match needs with limited available resources. Without this baseline,
corrective actions in regard to the other recommendations would be extremely difficult. If program
offices cannot identify short term future needs, there is a question as to whether there is a valid need
for technical expertise. In our view, without a common understanding on the critical skills needed and
their associated cost, the Department cannot be assured that the individuals to be assigned are
appropriate, necessary, and cost-effective.

       3.      Discontinue the use of all inventoried Washington, DC-based field
               contractor and subcontractor employees that have not demonstrated a
               skill critical to Department operations or programs;

        Management Comments. Management concurred with the recommendation and stated that it
has already directed the discontinuation of any current assignment contrary to Departmental policy. In
addition, DOE Notice 350.3 contemplates the case-by-case consideration of the critical skill or field of
expertise of each employee assignment. Further, as directed by the Deputy Secretary in his
memorandum dated March 21, 1997, all further assignments, new and renewed, of M&O contractor
and subcontractor employees to Headquarters first must be authorized by the Assistant Secretary for
Human Resources and Administration.

        Auditor Comments. Although management concurred with the recommendation and had
several policies and directives in place that emphasize the Department's position on this topic, program
and field offices are not following the policy or have not been held accountable for ignoring the

                                                    16
Deputy Secretary's directions. Our report identified at least 130 contractor employees in the
Washington, DC area that were performing support or administrative functions. In addition, as
previously pointed out, at least 3 individuals were brought to Headquarters after March 21, 1997,
without the approval of the Assistant Secretary for HR.

       4.      Establish policy and procedures that require a cost analysis prior to
               the assignment detailing the total cost to the Department to maintain
               the employee in the Washington, DC area for the full extent of the
               assignment, or a reimbursement schedule showing the total cost that
               will be reimbursed to the Department for services provided to another
               agency;

       Management Comments. Management concurred with the recommendation and stated that the
review and approval process established by the mechanisms described in the response to
Recommendation 3 requires that the nature and magnitude of the cost associated with each contractor
employee be assessed, understood, and determined to be cost-effective by the heads of the
Departmental elements. In addition, as a part of the backup documentation to be submitted to the
Assistant Secretary for Human Resources and Administration requesting approval of each new and
renewed contractor employee in the Washington, DC area, the heads of the Departmental elements
must make the determination that an assignment is cost-effective. Management also noted that the
Department's policies in this regard do not affect contractor assignments under Work-for-Others type
programs. Such activities are controlled by other Departmental policies and directives.

        Auditor Comments. Assuming the Department develops the baseline of critical skills
contemplated in Recommendation 2 and applies the baseline to approval decisions, the Department’s
proposed actions will be responsive to the recommendation. In addition, although the use of
contractor employees in other agencies is not specifically covered in DOE Notice 350.3, other DOE
policy and good business practice dictate that any costs incurred by the Department, including Work-
for-Others programs, should be monitored.


       5.      Implement and enforce current policies and procedures that require
               employees with skills critical to the Department to obtain approval of
               the Assistant Secretary for Human Resources and Administration
               prior to their assignment;

        Management Comments. Management concurred and stated that Departmental elements have
been directed by the Office of the Deputy Secretary to obtain prior approval for all new and renewed
assignments of M&O contractor and subcontractor employees to Headquarters. The assignments will
require that heads of Headquarters components periodically remind their managers of this requirement.
Additionally, senior officials will reemphasize to Heads of field elements that no new contractor
assignments may be made absent approval.

       Auditor Comments. Management’s comments are responsive to the recommendation.




                                                  17
       6.     Review and evaluate, semiannually, with the assistance of the
              Department's Procurement executive, whether assignments of field
              contractor employees at Headquarters or other Federal agencies are
              being appropriately utilized in accordance with Departmental
              requirements.

      Management Comments. Management concurred and added that the Assistant Secretary for
Human Resources and Administration will provide for an annual assessment of whether contractor
employees are being appropriately used consistent with established policy.

       Auditor Comments. Assuming the Department develops the baseline of critical skills
contemplated in Recommendation 2, management’s proposed annual assessment of the use of field
contractor employees is responsive to the recommendation.




                                               18
                                                                                 APPENDIX


                Related Reports Issued by the Office of Inspector General


Report Number          Report Title

IG-0402                Audit of the Management of the Department of Energy’s Leased
                       Administrative Facilities

IG-0392                Audit of the Department of Energy Program Offices’ Use of
                       Management and Operating Contractor Employees

IG-0330                Audit of Management and Operating Contractors’ Subcontract
                       Administration

IG-0297                Audit of the Cost Effectiveness of Contracting for Headquarters
                       Support Services

CR-B-95-06             Audit of Department of Energy Support Service Contracting

CR-B-95-04             Audit of Management and Operating Contractor Relocation Costs

CR-BC-91-01            Review of Headquarters Use of Cost-Reimbursement Contracts




                                           19
                                                               Report No. DOE/IG - 0410

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have
   been included in this report to assist management in implementing corrective
   actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.


Name ___________________________              Date_____________________________

Telephone _______________________            Organization_______________________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




                                                  20
